U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 11, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Kissinger St. Fleur v. United States, No. 20-6367
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 9,
2020, and placed on the docket on November 18, 2020. The government’s response is now due,
after one extension, on January 19, 2021. We respectfully request, under Rule 30.4 of the Rules
of this Court, a further extension of time to and including February 19, 2021, within which to file
a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-6367
ST. FLEUR, KISSINGER
USA

CHARLES MICHAEL GREEN
55 EAST PINE STREET
ORLANDO, FL 32801

